APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2018-1409
VETERANS CONTRACTING GROUP, INC.,
Plaintiff-Appellant,
v.
UNITED STATES,
Defendant-Appellee.
Appeal from the United States Court of Federal
Claims in No. 1:17-cv-01015C, Judge Charles F. Lettow.
Decided: April 2, 2019
OPINION
Before LOURIE, DYK, and HUGHES, Circuit Judges.
Opinion for the court filed by Circuit Judge HUGHES.
Dissenting opinion filed by Circuit Judge DYK.
HUGHES, Circuit Judge:
Veterans Contracting Group, Inc., appeals from a
decision of the United States Court of Federal Claims
holding that the Department of Veterans Affairs did
not act arbitrarily or capriciously when it cancelled a
roof replacement solicitation set aside for servicedisabled veteran-owned small businesses. Because the
contracting officer acted rationally in requesting cancellation based on the record before him, we affirm.

2a
I
A.
The government sets aside certain contracting opportunities for service-disabled veteran-owned small
businesses (SDVOSBs). See Kingdomware Techs., Inc.
v. United States, 136 S. Ct. 1969, 1973 (2016). Two
agencies are responsible for managing procurements on
SDVOSB set-aside contracts: the Department of Veterans Affairs (VA) and the Small Business Administration (SBA). The VA regulates its own procurements,
while the SBA regulates the procurements of all other
agencies. Although the VA and the SBA systems overlap in many respects, they are governed by different
statutory provisions. See 38 U.S.C. § 8127 (VA); 15
U.S.C. § 657f (SBA). This appeal concerns the system
run by the VA.
Under VA regulations, a business may only compete for SDVOSB set-aside contracts if it has registered with the VA’s Center for Verification and Evaluation. See 38 U.S.C. §§ 8127(e)–(f); 38 C.F.R. §§ 74.11,
74.20. If the Center determines that a business qualifies as an SDVOSB, it adds that business to a centralized database called VetBiz. See 38 U.S.C. §§ 8127(e)–
(f); 48 C.F.R. § 804.1102; 38 C.F.R. §§ 74.11, 74.20. During procurement, contracting officers can only consider
bids submitted by businesses listed on VetBiz. See 38
U.S.C. § 8127(e); 48 C.F.R. § 804.1102. If the business
is not in the database when bidding closes, the contracting officer cannot consider its bid. See 38 U.S.C.
§ 8127(e); 48 C.F.R. § 804.1102.
A business is eligible to compete for SDVOSB contracts if one or more veterans “unconditionally” own a
majority interest in the company. See 38 C.F.R.
§ 74.2(a) (VA); see also 13 C.F.R. § 125.12 (SBA). In

3a
2017, the VA and the SBA applied different definitions
of “unconditional” ownership.1 According to the VA,
ownership was unconditional if it was free from “arrangements causing or potentially causing ownership
benefits to go to another.” See 38 C.F.R. § 74.3(b)
(2017). The VA exempted arrangements conditioned
“after death or incapacity” from this limitation. See id.
The SBA, on the other hand, disallowed any limitations
on a veteran’s ownership interest—including those
premised on death or incapacity. See Matter of The
Wexford Grp., Int’l, Inc., SBA No. SDV-105, 2006 WL
4726737, at *6, *9–10 (June 29, 2006).
Even after the Center makes the initial determination that a business qualifies as an SDVOSB, eligibility
continues to remain relevant. Verified businesses have
an ongoing obligation to maintain their status, and the
Center may remove any business which fails to comply
with this obligation. See 38 C.F.R. §§ 74.15(b), (e).
Generally, a business is entitled to notice and an opportunity to respond before the Center effects removal.
See id. § 74.22. The regulations existing in 2017, however, provided for one narrow circumstance under
which the VA had to immediately remove a business
from VetBiz: upon notice from the SBA that it has
found the business ineligible to compete in its system.
See id. § 74.2(e) (2017). The regulation provided the
Center with no discretion with respect to removal in
this scenario. See id.

1

The VA and SBA recently aligned their regulations regarding unconditional ownership. See Ownership and Control of Service-Disabled Veteran-Owned Small Business Concerns, 83 Fed.
Reg. 48,908 (Oct. 1, 2018) (codified at 13 C.F.R. § 125).

4a
B.
Ronald Montano, a service-disabled veteran, owns
51% of Veterans Contracting Group, Inc. (VCG). His
ownership interest is subject to limitations in the event
of his death or incapacity. In 2013, the Center determined that VCG qualified as an SDVOSB under the VA
system and added VCG to VetBiz. The Center reaffirmed VCG’s status each year until 2017.
On January 5, 2017, VCG learned that it was the
lowest bidder on an SDVOSB set-aside contract issued
by an agency working with the SBA. The second lowest
bidder filed a bid protest challenging VCG’s eligibility to
compete for the contract. The SBA ultimately determined that, because of the limitations on his ownership
interest in the event of his death or incapacity, Mr. Montano did not “unconditionally” own his interest in VCG.
As a result, VCG did not qualify as an SDVOSB under
the SBA system. The SBA informed the VA of its decision on July 18, 2017. Because VA regulations required
the Center to remove any business found ineligible in an
SBA proceeding, see 38 C.F.R. § 74.2(e) (2017), the VA
removed VCG from VetBiz on July 21, 2017.
Before VCG’s removal from VetBiz, the VA had issued solicitations for bids in two SDVOSB set-aside
contracts, one for a roof replacement and one for a relocation effort. The application deadline for the roof replacement solicitation was July 28, 2017. The application deadline for the relocation contract was August 2,
2017.2 Realizing that bidding might close on these solicitations before it finished litigating its status as an
SDVOSB, VCG sent the VA a letter on July 26, 2017,
2

The government later extended this deadline because of
VCG’s bid protest.

5a
expressing its intent to seek a preliminary injunction.
Although VCG’s letter repeatedly referenced the relocation solicitation, it failed to mention the roof replacement solicitation.3
On July 28, 2017, hours before the 9:00 am deadline
on the roof replacement solicitation, VCG filed a bid
protest in the Court of Federal Claims. VCG did not
request a temporary restraining order or injunctive relief in its complaint.
That same day, the contracting officer opened bids
for the roof replacement solicitation. The lowest responsive bidder had proposed a cost 30% higher than
the government’s estimate. VCG had submitted a bid
closer to the government’s projected cost, but the contracting officer could not consider its bid because VCG
was not listed in the VetBiz database on the day bidding closed. See 38 U.S.C. § 8127(e). Given the absence
of any reasonable bids, the contracting officer drafted
an email on August 1, 2017, recommending cancellation
and reposting of the solicitation.
On August 5, 2017, five days after the contracting
officer sought cancellation, VCG moved for a preliminary injunction on the roof replacement solicitation. On
August 11, 2017, the VA informed the Court of Federal
Claims of its intent to cancel the solicitation pursuant
to 48 C.F.R. § 14.404-1(c)(6), which permits cancellation
when “[a]ll otherwise acceptable bids received are at
unreasonable prices.” The VA finalized cancellation on
August 22, 2017. Hours later, the Court of Federal
Claims granted VCG a preliminary injunction restoring
3

Because VCG misspelled the email address of the bid protest division of the Department of Justice, the government disputes receipt of this letter. See Resp. Br. 5.

6a
it to VetBiz.4 See Veterans Contracting Grp., Inc., v.
United States, 133 Fed. Cl. 613, 624 (2017) (VCG I). In
its decision, the court specifically declined to address
relief related to the roof replacement solicitation
“[b]ecause the government has stated that the roofing
solicitation is in the process of being cancelled and reissued,” thereby rendering VCG’s “claim with respect to
that solicitation … moot.” Id. at 624 n.11.
The Court of Federal Claims ultimately made the
injunction permanent. See Veterans Contracting Grp.,
Inc., v. United States, 135 Fed. Cl. 610, 619 (2017) (VCG
II). The court reasoned that, because the SBA and VA
regulations had differed at that time on whether contingencies for death or incapacity would disqualify a
business from SDVOSB status, the VA had acted arbitrarily and capriciously when it applied 38 C.F.R.
§ 74.2(e) in a mechanical manner. See id. at 618–19.
The court, however, rejected VCG’s claim that the contracting officer had acted arbitrarily and capriciously in
cancelling the roof replacement solicitation.5 See id. at
619–20. It noted that the contracting officer had followed normal procurement procedures. Id. at 619.
Based on the information available to him at the time,
he rationally determined that the government had not
received any reasonable bids. Id. Because he could not
have known that the Center had improperly removed
VCG from VetBiz, the court held that the contracting

4

The preliminary injunction only restored VCG to VetBiz
prospectively. Restoration thus did not change VCG’s eligibility
as of the July 28 application deadline for the roof replacement solicitation.
5

Following cancellation of the roof replacement solicitation,
VCG amended its complaint to challenge that decision.

7a
officer’s decision to cancel the solicitation was not arbitrary or capricious. See id. at 619–20.
VCG appeals the denial of its claim that the cancellation of the roof replacement solicitation was arbitrary
and capricious. We have jurisdiction under 28 U.S.C.
§ 1295(a)(3).
II
We review the legal determinations of the Court of
Federal Claims de novo and any underlying factual
findings for clear error. Palladian Partners, Inc. v.
United States, 783 F.3d 1243, 1252 (Fed. Cir. 2015). In
a bid protest, we follow Administrative Procedure Act
§ 706 and set aside agency action “if it is arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” Id. A procurement decision fails
under § 706 if “(1) the procurement official’s decision
lacked a rational basis; or (2) the procurement procedure involved a violation of regulation or procedure.”
Id. (internal quotation marks omitted) (quoting Savantage Fin. Servs. v. United States, 595 F.3d 1282,
1285–86 (Fed. Cir. 2010)).
A.
We first address whether the contracting officer’s
decision to cancel the roof replacement solicitation
lacked any rational basis.6 VCG contends that the VA
should have held the solicitation open pending resolution of its suit because it was the lowest bidder. It ar6

VCG also argues that the contracting officer violated procurement procedures when he requested cancellation. The only
support it offers, however, is that the contracting officer “should
never have opened the bids in the first place.” Pet. Br. 14–15 (emphasis in original). Because VCG has waived the bid opening issue
on appeal, see infra Part II B., we do not address this challenge.

8a
gues that cancellation was irrational and subverted the
government’s statutory duty to award contracts to
SDVOSBs. In response, the government asserts that
the contracting officer rationally cancelled the solicitation based on the compelling reason that he had received no reasonable responsive and responsible bids.
The government has a duty to conduct fair procurements. See Parcel 49C Ltd. P’ship v. United
States, 31 F.3d 1147, 1152 (Fed. Cir. 1994). An agency
violates this duty “if its consideration of offers is found
to be ‘arbitrary and capricious toward the bidderclaimant.’” Cent. Ark. Maint., Inc. v. United States, 68
F.3d 1338, 1341 (Fed. Cir. 1995) (quoting Keco Indus.,
Inc. v. United States, 492 F.2d 1200, 1203 (Ct. Cl.
1974)). A bidder-claimant carries the burden of demonstrating that an agency acted arbitrarily and capriciously during procurement. See Parcel 49C, 31 F.3d at
1153. To meet this burden, a bidder-claimant generally
must show that the procurement decision lacked a
“proper legal basis.” See id. at 1154.
In Parcel 49C, for example, Parcel 49C met its burden of proof by showing that the government had “no
rational basis” for cancelling a solicitation. Id. at 1153.
It introduced overwhelming evidence that the rationale
offered by the agency for cancellation was “merely a
pretext for accommodating FCC’s displeasure with the
selection of Parcel 49C.” Id. at 1151. The record
showed that the agency’s actual motivation was the
hope of avoiding “a move to the less desirable southwest
quadrant of Washington, D.C.” Id. at 1153. Because the
government cannot cancel a solicitation solely to satisfy
an agency’s whim, we held that the cancellation was arbitrary and capricious. Id. at 1153–54.

9a
Unlike the plaintiff in Parcel 49C, VCG has not
shown that the contracting officer lacked any rational
basis for cancelling the roof replacement solicitation.
First, the record discloses a reasonable motivation for
cancellation. While cancellation after bids have been
opened is generally disfavored, a solicitation may be cancelled if “there is a compelling reason to reject all bids
and cancel the invitation.” 48 C.F.R. § 14.404-1(a)(1). A
compelling reason may exist when “[a]ll otherwise acceptable bids received are at unreasonable prices.” Id. §
14.404-1(c)(6). VCG’s bid was not acceptable because
VCG was not listed in the VetBiz database when bidding
closed. See 38 U.S.C. § 8127(e). The only two acceptable
bids proposed costs significantly higher than the government’s estimate for the project. Thus, the contracting officer rationally determined that these prices were
unreasonable. Under the circumstances, he had a compelling reason to request cancellation.
Second, there is no indication that this reason was a
mere pretext to cover an improper motivation. Although VCG alleges that the contracting officer intended to subvert the government’s statutory duties to
SDVOSBs, it has offered no evidence that the contracting officer knew the Center had wrongfully removed
VCG from VetBiz when he requested cancellation of
the solicitation. VCG’s July 26 letter to the VA only
referred to the relocation solicitation and did not mention the roof replacement solicitation. It thus could not
provide notice of VCG’s intent to seek injunctive relief
with respect to roof replacement solicitation. While the
act of filing a bid protest on July 28 may have given the
contracting officer some indication that VCG disputed
its status, VCG’s initial complaint requested no form of
injunctive relief. VCG only moved for a preliminary
injunction on August 5—eight days after bidding on the

10a
solicitation had closed and four days after the contracting officer had first requested cancellation. In other
words, when the contracting officer requested cancellation, he had no reason to expect the court would impose
any limitations on his exercise of discretion. Moreover,
because the Court of Federal Claims did not grant
VCG’s motion until after the solicitation had been fully
cancelled, see VCG I, 133 Fed. Cl. at 624, nothing prevented the contracting officer from continuing to pursue cancellation once VCG moved for a preliminary injunction.
We also find it significant that, until the Court of
Federal Claims granted judgment on the administrative record on December 15, 2017, the government had
not conceded that the Center had acted arbitrarily and
capriciously in removing VCG from VetBiz. Instead, it
maintained that the Center had acted rationally given
applicable regulatory guidelines.
See 38 C.F.R.
§ 74.2(e) (2017). A contracting officer must act in consideration of circumstances as they exist at the time of
his decision. See Bowman Transp., Inc. v. Ark.-Best
Freight Sys., Inc., 419 U.S. 281, 285 (1974) (explaining
that “[t]he agency must articulate a ‘rational connection
between the facts found and the choice made’” (emphasis added) (quoting Burlington Truck Lines v. United
States, 371 U.S. 156, 168 (1962))). At the time of his decision, the contracting officer was bound by the government’s position on this issue and had to presume the
Center had acted lawfully. That the Court of Federal
Claims determined four months after cancellation that
the Center had not acted lawfully thus does not retroactively render his actions irrational.7
7

The dissent contends that accounting for whether the contracting officer knew the Center had unlawfully excluded VCG

11a
In sum, we find that the contracting officer had a
rational basis to cancel the roof replacement solicitation. See Palladian, 783 F.3d at 1252. We therefore
conclude that the contracting officer’s decision to cancel
the roof replacement solicitation was not arbitrary or
capricious.
B.
We next consider whether the contracting officer’s
decision to open bids on the roof replacement solicitation was arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with the law. VCG contends that the VA should never open bids once it receives a pre-award protest because such an action is
from the database “effectively limits our review to whether the
contracting officer acted in bad faith.” Dissent at 3. We disagree.
Rather than broadly holding that any agency action “based on an
earlier, unlawful act is rational unless the agency official making
the decision knew the earlier action was unlawful,” Dissent at 3,
our decision simply acknowledges that a contracting officer can
only act within the scope of his authority and that, here, the contracting officer had no authority to consider VCG’s bid. See 38
U.S.C. § 8127(e) (prohibiting the contracting officer from considering bids submitted by businesses not listed on VetBiz); Liberty
Ammunition, Inc. v. United States, 835 F.3d 1388, 1401–02 (Fed.
Cir. 2016) (noting that “[a] Government agent must have actual
authority to bind the Government to a contract” and that a contracting officer “has only that authority actually conferred upon
him by statute or regulation” (internal quotation marks omitted)
(quoting CACI, Inc. v. Stone, 990 F.2d 1233, 1236 (Fed. Cir.
1993))). While we can say in hindsight that the “VA would likely
have awarded the contract to VCG had it not erroneously removed VCG from the database,” see Dissent at 5, it does not
change the fact that, at the time the contracting officer cancelled
the solicitation, VCG was not listed on VetBiz. It would run contrary to precedent and fairness to find that subsequent, unanticipated circumstances retroactively rendered cancellation irrational
when the contracting officer had no authority to consider VCG’s
bid, let alone award the contract to VCG, at the time he acted.

12a
contrary to procurement policy. VCG has failed to establish, however, that it raised the issue of bid opening
before the Court of Federal Claims. It has accordingly
waived this challenge on appeal. See Nacchio v. United
States, 824 F.3d 1370, 1382 (Fed. Cir. 2016) (“We generally do not consider issues that were not clearly
raised in the proceeding below.”).
Even if VCG had preserved this argument, we still
would find it meritless. VCG did not request injunctive
relief until well after bids were opened. Because the
contracting officer had no notice of any reason to postpone opening bids for the roof replacement solicitation,
his decision to open bids on July 28, 2017, was not arbitrary or capricious.
III
We have considered the parties’ remaining arguments and find them unpersuasive. We conclude that
the contracting officer’s decision to cancel the roof replacement solicitation was not arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with
the law. For these reasons, we affirm the decision of
the Court of Federal Claims.
AFFIRMED
No costs.

13a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2018-1409
VETERANS CONTRACTING GROUP, INC.,
Plaintiff-Appellant,
v.
UNITED STATES,
Defendant-Appellee.
Appeal from the United States Court of Federal
Claims in No. 1:17-cv-01015C, Judge Charles F. Lettow.
DYK, Circuit Judge, dissenting.
I
In my view this is a simple case. Veterans Contracting Group, Inc. (“VCG”) bid on a Department of
Veterans Affairs (“VA”) contract. As the government
now concedes, VCG was improperly excluded from the
database of eligible bidders. The VA contracting officer, acting pursuant to 38 U.S.C. § 8127(e), refused to
award the contract to VCG, which had submitted an
otherwise responsive (and lowest) bid, because VCG
was not listed in the database. The majority agrees
that the contract would likely have been awarded to
VCG but for the VA’s error in removing VCG from the
database.
Nonetheless, the majority affirms. That result,
denying a contract to a preference-eligible contractor,
can only be achieved by treating the contracting officer
and the preparer of the database as though they were

14a
separate entities. They were not. Both were part of
the VA and acted as agents of the VA. See 38 U.S.C.
§ 8127(d) (providing that “a contracting officer of the
Department shall award contracts” to small business
concerns owned and controlled by veterans (emphasis
added)); id. § 8127(f)(1) (providing that “the Secretary
shall maintain a database of small business concerns
owned and controlled by veterans”); see also Liberty
Ammunition, Inc. v. United States, 835 F.3d 1388,
1401–02 (Fed. Cir. 2016) (“It is a well recognized principle of procurement law that the contracting officer, as
agent of the executive department, has only that authority actually conferred upon him by statute or regulation.” (quoting CACI, Inc. v. Stone, 990 F.2d 1233,
1236 (Fed. Cir. 1993))).
According to the majority, whether the VA’s rejection of VCG’s bid was arbitrary depends on who within
the VA is responsible for the error: the contracting officer or the preparer of the database. If VCG had been
in the database and the contracting officer rejected
VCG’s bid by ignoring its listing in the database, rejecting VCG’s bid presumably would have been arbitrary.
But here, since the contracting officer did not prepare
the database, rejecting the bid was not arbitrary—even
though the result is precisely the same. It should make
no difference which individual within the VA committed the error.
The majority reasons that the contracting officer’s
decision to reject VCG’s bid and cancel the solicitation
was rational because there is “no evidence that the contracting officer knew the [VA] had wrongfully removed
VCG from [the database] when he requested cancellation.” Majority Op. at 9. “At the time of his decision,
the contracting officer was bound by the government’s
position … and had to presume [the VA] had acted law-

15a
fully” in removing VCG from the database. Id. at 10.
In other words, the majority holds that an agency’s decision based on an earlier, unlawful action is rational
unless the agency official making the decision knew the
earlier action was unlawful. Under this approach, any
agency decision based on an unlawful regulation would
presumably be lawful, if, at the time, the agency official
was unaware of the illegality. There is no support for
the majority’s approach, which would insulate much
agency action from effective review.
By holding that the VA’s actions were lawful because the contracting officer did not know of the unlawful error and thus lacked any “improper motivation,”
Majority Op. at 9, the majority effectively limits our
review to whether the contracting officer acted in bad
faith. But we have previously explained that “the APA
standard of review … is not limited to fraud or bad
faith by the contracting officer.” Impresa Construzioni
Geom. Domenico Garufi v. United States, 238 F.3d
1324, 1333 (Fed. Cir. 2001). The VA rejected VCG’s bid
only because it wrongfully removed VCG from the database. That the contracting officer had no knowledge
of that error or acted in good faith does not excuse the
error.
The majority responds that “a contracting officer
can only act within the scope of his authority” and that
“[i]t would run contrary to precedent and fairness to
find that subsequent, unanticipated circumstances retroactively rendered cancellation irrational.” Majority
Op. at 10–11 n.2. But VCG’s erroneous removal was
not a subsequent, unanticipated circumstance. The
Claims Court’s decision is not what made VCG’s removal unlawful; it was unlawful from the beginning.
The Claims Court’s decision merely recognized the illegality. We have ordered a remedy for unlawful action

16a
even where the agency lacked knowledge of the illegality at the time. For example, in Dodson v. United
States Government, 988 F.2d 1199 (Fed. Cir. 1993), the
Promotion Selection Board concluded that an Army
staff sergeant should be discharged and barred from
reenlisting due in part to low scores on his annual enlisted evaluation reports. See id. at 1201–03. Among
those evaluations was an incorrect, low score that a
substitute rater had mistakenly placed in the sergeant’s
personnel file for Board review. See id. at 1201. We
held that the Army acted unlawfully in discharging the
sergeant and barring him from reenlistment. See id. at
1205–06. That was so even though the Board that made
the decision did not place the erroneous score in his file,
and the incorrect score was invalidated and deleted
from the sergeant’s file only after the Board decision.
See id.
II
When an agency acts arbitrarily, as the VA did
here by excluding VCG from the database, the agency’s
resulting action—rejecting the bid—must be set aside.
See Parcel 49C Ltd. P’ship v. United States, 31 F.3d
1147, 1154 (Fed. Cir. 1994) (affirming an injunction that
“restore[d] the posture of the Government and [the
bidder] before the illegal cancellation” because it would
“remove the taint of illegality from this procurement
process”); CACI, Inc.–Fed. v. United States, 719 F.2d
1567, 1575 (Fed. Cir. 1983) (noting that where a bidder
has been deprived of “the opportunity to have its bid
considered solely on its merits,” “[a]n injunction barring the award would correct this alleged injury since it
would require the government … to repeat the bidding
process under circumstances that would eliminate the
alleged taint of the prior proceedings”); Delta Data Sys.
Corp. v. Webster, 744 F.2d 197, 203 (D.C. Cir. 1984)

17a
(holding that because the FBI unlawfully awarded a
contract, the disappointed bidder had a right to require
the FBI to reselect a contractor based on the best final
offers previously submitted, even though “[c]onsiderable performance ha[d] already taken place under the []
contract”). Thus, where the agency commits an error
that denies a bidder the opportunity to have its bid
considered solely on the merits, the appropriate remedy must give the bidder that opportunity, placing it in
the position it would have occupied but for the agency’s
error.
Our decision in Marshall v. Department of Health
and Human Services, 587 F.3d 1310 (Fed. Cir. 2009), is
also instructive. There, the Department of Health and
Human Services admitted that it acted unlawfully
when it hired a non-veteran instead of the plaintiff and
conceded “that it would have selected [the plaintiff] for
the position had it not erroneously removed his name
from the list of candidates.” Id. at 1311. On appeal, the
question concerned the proper remedy. We held that
“the appropriate remedy is for [the plaintiff] to be
awarded this position. The fact that the agency filled
the position with another employee in violation of the
[Veterans Employment Opportunities Act] preferences
is not an adequate reason to force the aggrieved veteran into a different position.” Id. at 1317.
The underlying logic of these cases applies here:
The VA would likely have awarded the contract to
VCG had it not erroneously removed VCG from the database. The appropriate remedy is to place VCG in the
situation it would have occupied had the VA not acted
improperly.
I respectfully dissent.

19a
APPENDIX B
IN THE UNITED STATES COURT OF FEDERAL CLAIMS
No. 17-1015 C
December 17, 2017
VETERANS CONTRACTING GROUP, INC.,
Plaintiff,
v.
THE UNITED STATES,
Defendant.
RULE 54(b) JUDGMENT
Pursuant to the court’s Opinion and Order, filed
December 15, 2017, granting-in-part and denying-inpart plaintiff’s motion for judgment on the administrative record and granting-in-part and denying-in-part
defendant’s cross-motion for judgment on the administrative record, and directing the entry of judgment
pursuant to Rule 54(b), there being no just reason for
delay,
IT IS ORDERED AND ADJUDGED this date,
pursuant to Rule 58, that this court’s preliminary injunction dated August 22, 2017, which set aside CVE’s
decision removing Veterans from the VetBiz VIP database, is hereby made permanent. Veterans’ year-long
eligibility in the VIP database shall be extended by 34
days to account for the period during which it was
wrongfully excluded from competing on VA procurement set-asides. Although Veterans is denied retroac-

20a
tive injunctive relief for the cancellation of the roofing
solicitation, it shall recover its reasonable bid preparation and proposal costs regarding that solicitation.
Lisa L. Reyes
Clerk of Court
December 18, 2017

By:

s/ Anthony Curry
Deputy Clerk

NOTE: As to appeal, 60 days from this date, see RCFC
58.1, re number of copies and listing of all plaintiffs.
Filing fee is $505.00.

21a
APPENDIX C
UNITED STATES COURT OF FEDERAL CLAIMS
No. 17-1015C
(Filed Under Seal: December 15, 2017)
(Reissued: December 21, 2017)
VETERANS CONTRACTING GROUP, INC.
Plaintiff,
v.
UNITED STATES
Defendant.
Pre-award bid protest; restoration of SDVOSB to the
VA’s VetBiz VIP database; cancellation of one
solicitation; prospective, not retroactive, restoration of
SDVOSB to the VetBiz VIP database, award of bid
preparation and proposal costs
OPINION AND ORDER1
LETTOW, Judge:
This pre-award bid protest returns to this court after the issuance of a preliminary injunction,2 action by
1

Because of the protective order entered in this case, this
opinion was initially filed under seal. The parties were requested
to review this decision and provide proposed redactions of any
confidential or proprietary information. The resulting redactions
are shown by brackets enclosing asterisks, e.g., “[***].”
2

See Veterans Contracting Grp. Inc. v. United States, 133
Fed. Cl. 613 (2017) (granting a preliminary injunction setting aside
the agency’s decision to remove the protester from the VetBiz

22a
the agency to substantially recast the two solicitations
at issue, and the filing of a first and then a second
amended complaint by the protester. Plaintiff, Veterans Contracting Group (“Veterans”), was initially verified by the United States Department of Veterans Affairs (“VA”) as a service-disabled veteran-owned small
business (“SDVOSB”). While Veterans was preparing
to submit bids on two VA solicitations set aside for
SDVOSBs, the Small Business Administration (“SBA”)
issued a decision in a protest before it, disqualifying
Veterans as an SDVOSB. Shortly thereafter, VA informed Veterans that, due to that adverse decision, it
was being removed from the VA database for
SDVOSBs eligible to compete for VA procurement setasides.3 Veterans then filed this bid protest and sought
a preliminary injunction with respect to the two
SDVOSB procurements it had been preparing to pursue. Veterans alleged that it was a qualified SDVOSB
eligible for an award in those procurements and should
not have been removed from the VA database.
This court granted Veterans’ motion for preliminary injunction in part, ordering VA to restore VeterVIP database of approved SDVOSB entities and restoring the
protester to the list).
3

SBA’s decision was rendered by its Office of Hearings and
Appeals (“OHA”), and came in a procurement by the Corps of Engineers. Veterans was the low bidder in that procurement and
had been awarded the contract by the Corps, but a competing offeror protested the award and triggered the proceedings that ultimately resulted in OHA’s decision to disqualify Veterans from
the award by the Corps. Veterans protested that disqualification
in a separate, related post-award bid protest, but the court denied
relief and upheld the disqualification based on SBA’s regulations
that diverge materially from those adopted by VA. See Veterans
Contracting Grp. Inc. v. United States, ___ Fed. Cl. ___, 2017 WL
6505208, No. 17-1188C (Dec. 11, 2017).

23a
ans to the procurement database and rendering it eligible to compete for SDVOSB set-asides. This Veterans
was able to do with regard to one of the solicitations,
but VA canceled the other. As the circumstances
evolved, Veterans sought and was granted leave to
amend its complaint on two occasions to protest that
cancellation, and the administrative record was supplemented to account for the new developments.
Veterans then moved for judgment on the administrative record, seeking both declaratory and injunctive
relief. First, Veterans requests a declaration that Veterans’ removal from the VA database was arbitrary,
capricious, a violation of VA’s regulations, and an
abridgment of Veterans’ due process rights, rendering
permanent the relief ordered by the court’s preliminary
injunction. Second, Veterans seeks an injunction barring VA from cancelling the second solicitation and ordering it to consider Veterans retroactively eligible for
an award of a contract based upon that solicitation. The
government has responded with a cross-motion for
judgment on the administrative record.
STATUTORY AND REGULATORY FRAMEWORK
“In an effort to encourage small businesses, Congress has mandated that federal agencies restrict competition for some federal contracts.” Kingdomware
Techs., Inc. v. United States, __ U.S. __, __, 136 S. Ct.
1969, 1973 (2016). The task of promulgating regulations
“set[ting] forth procedures … to set aside contracts
for” SDVOSBs has been assigned to two distinct agencies, VA and SBA. See Kingdomware Techs., 136 S. Ct.
at 1973 (internal quotation marks omitted); see also 15
U.S.C. § 657f (SBA); 38 U.S.C. § 8127(a), (e) (VA). VA
and SBA have established separate but overlapping

24a
regulatory frameworks for these set-asides. Compare
38 C.F.R. Part 74 (VA), with 13 C.F.R. Part 125 (SBA).
Congress authorized VA to set aside certain contracts for “small business concerns owned and controlled by veterans with service-connected disabilities”
through the Veterans Benefits, Health Care, and Information Technology Act of 2006 (“Veterans Benefits
Act”), Pub. L. No. 109-461, tit. V, 120 Stat. 3403, 3425
(codified as amended in relevant part at 38 U.S.C.
§§ 8127-28). See 38 U.S.C. § 8127(a), (e). The Act and, a
fortiori, the regulations it authorizes apply only to VA
procurements. See Angelica Textile Servs., Inc. v.
United States, 95 Fed. Cl. 208, 222 (2010) (“The [VA] is
responsible for implementing the Veterans Benefits
Act; indeed, it is the only federal department or agency
to which the Act's requirements apply.”); see also 48
C.F.R. § 819.7002 (explaining that the VA’s implementing regulations apply only to “VA contracting activities
and to its prime contractors” and “to any government
entity that has a contract … or other arrangement with
VA to acquire goods and services for VA”) (emphasis
added).
VA implemented the Veterans Benefits Act
through the “Veterans First Contracting Program,”
established in 2007. See AmBuild Co. v. United States,
119 Fed. Cl. 10, 19 (2014). “At the Program's commencement, SDVOSB … entities were permitted to
self-certify … for registration in the VetBiz VIP database.” Id. But the authorizing statute was subsequently amended to require the Secretary of Veterans Affairs to maintain the database and certify contracting
entities through the VA’s Center for Verification and
Evaluation (“CVE”). Id. (citing 38 U.S.C. § 8127(e),
(f)); see also 48 C.F.R. § 804.1102. A business must be
included on the VA’s VetBiz VIP database to qualify as

25a
an eligible SDVOSB for a contract award. See 38
U.S.C. § 8127(e), (f); 48 C.F.R. § 804.1102. CVE now
certifies participating entities and maintains such certification by performing examinations that “review …
a[t] a minimum … all documents supporting the application, as described in [38 C.F.R.] § 74.12.” See 38
C.F.R. § 74.20(b). These “examination[s] may be conducted on a random, unannounced basis, or upon receipt of specific and credible information alleging that a
participant no longer meets eligibility requirements.”
Id. § 74.20(a).
“When CVE believes that a participant's verified
status should be cancelled prior to the expiration of its
eligibility term,” CVE notifies the small business and
allows 30 days for it to respond. See 38 C.F.R.
§ 74.22(a)-(b). Upon a determination that cancellation
is warranted, the director of the CVE will issue a reasoned notice of cancellation, and the business will be
removed from the VetBiz VIP database. See id.
§ 74.22(c)-(d). The business then has a right to appeal
the determination to the Office of Small and Disadvantaged Business Utilization and Center for Veterans
Enterprise “within 30 days of receipt of [the] cancellation decision” or to “re-apply after it has met all eligibility criteria.” Id. § 74.22(c), (e).
38 C.F.R. § 74.22 does not provide the only process
for removing a participant from the VIP database. VA
adopted 38 C.F.R. § 74.2(e) in 2010,4 and, with this single provision, protest decisions by SBA, presumably
applying SBA’s own regulations, could potentially displace VA’s cancellation and removal process without
accounting for the differences between the two agen4

See Veteran-Owned Small Business Guidelines, 75 Fed.
Reg. 422, 378 (Feb. 8, 2010) (codified at 38 C.F.R. § 74.2(e)).

26a
cies’ underlying regulatory eligibility criteria. Subsection 74.2(e) states:
Any firm registered in the VetBiz VIP database that is found to be ineligible due to an
SBA protest decision or other negative finding
will be immediately removed from the VetBiz
VIP database. Until such time as CVE receives official notification that the firm has
proven that it has successfully overcome the
grounds for the determination or that the SBA
decision is overturned on appeal, the firm will
not be eligible to participate in the [Veterans
First Contracting P]rogram.
38 C.F.R. § 74.2(e). This provision is not remarkable in
isolation but, due to the differences in the VA and SBA
regulations, addressed infra, it can create anomalous
results. It was just this kind of anomalous outcome
that was set aside by the preliminary injunction issued
in this case. See Veterans Contracting Grp., 133 Fed.
Cl. 613.
To qualify for CVE certification as an SDVOSB,
“[a] small business concern must be unconditionally
owned and controlled by one or more eligible … service-disabled veterans.” 38 C.F.R. 74.2(a) (emphasis
added). When the small business concern is a corporation, “at least 51 percent of each class of voting stock
outstanding and 51 percent of the aggregate of all stock
outstanding must be unconditionally owned by one or
more … service-disabled veterans.” Id. § 74.3(b)(3).
VA has defined unconditional ownership in commercially customary terms:
Ownership must not be subject to conditions
precedent, conditions subsequent, executory
agreements, voting trusts, restrictions on as-

27a
signments of voting rights, or other arrangements causing or potentially causing ownership
benefits to go to another (other than after
death or incapacity). The pledge or encumbrance of stock or other ownership interest as
collateral, including seller-financed transactions, does not affect the unconditional nature
of ownership if the terms follow normal commercial practices and the owner retains control
absent violations of the terms.
Id. § 74.3(b) (emphasis added).
This court previously interpreted and applied these
regulations in Miles Constr., LLC, v. United States, 108
Fed. Cl. 792 (2013), and AmBuild, 119 Fed. Cl. 10. In
Miles, the VA had removed Miles Construction from
the VetBiz VIP database because there was a restriction on the service-disabled veteran’s ownership
interest, allegedly rendering his ownership conditional.
108 Fed. Cl. at 800-01. The company’s Operating
Agreement granted a right of first refusal to “the company, or the remaining members of the company if the
company declines, … to purchase a member's shares,
should he or she decide to sell.” Id. at 801. The government asserted that that provision of the Operating
Agreement was an executory agreement that violated
38 C.F.R. § 74.3(b) “because it prevent[ed the] owner
from acting [unilaterally] upon his ownership interest.”
Id. This court disagreed because the right-of-firstrefusal provision was “not presently executory” as it
had not been triggered by the veteran “choos[ing] to
sell some of his … stake” and because it was “a standard provision used in normal commercial dealings.” Id.
at 803 (relying on 38 C.F.R. § 74.3(b)).

28a
In AmBuild, the question was, inter alia, whether
a provision of an Operating Agreement that permits
the company to purchase the veteran-owner’s ownership interest in cases of “bankruptcy, receivership, and
transfer by court order or operation of law” rendered
ownership conditional in violation of 38 C.F.R. § 74.3(b).
119 Fed. Cl. at 16, 23-24. The government argued that
it did because “personal bankruptcy does not ordinarily
result in the divesture of ownership.” Id. at 24. But
this court disagreed, noting that “the property of every
business owner is automatically placed in custody of the
court upon bankruptcy,” and determining that the operating agreement reflected “a standard commercial
arrangement in compliance with 38 C.F.R. § 74.3(b).”
Id. at 25.
Congress has also authorized SBA to designate
SDVOSB set-asides, creating the Service-Disabled
Veteran-Owned
Small
Business
Concern
5
(“SDVOSBC”) program. Unlike the VA’s regulatory
approach, “SBA’s program … has no required verification program, relying instead on [annual selfcertification via] the System for Award Management.”
Veterans Contracting Grp., Inc., SBA No. VET-265,
2017 WL 4124865 at *9 (Aug. 31, 2017); see also 13
C.F.R. § 125.33. In place of CVE-type oversight, SBA
permits other bidders on specific solicitations to protest
the status or the ownership and control of the competing small business concern. See 13 C.F.R. § 125.29
5

The SBA’s SDVOSBC program was authorized by the Veterans Entrepreneurship and Small Business Development Act of
1999, Pub. L. No. 106-50, 113 Stat. 233 (codified as amended at 15
U.S.C. §§ 657b-57c), and the Veterans Benefits Act of 2003, Pub.
L. No. 108-183, 117 Stat. 2651 (codified as amended at 15 U.S.C.
§ 657f and 38 U.S.C. §§ 1821, 4113, 5109B, 7112), and implemented
via SBA regulations codified at 13 C.F.R. §§ 125.11 to 125.33.

29a
(“What are the grounds for filing an SDVOSBC protest?”). When challenging on ownership or control
grounds, the protestor must “present[] credible evidence that the concern is not 51% owned and controlled
by one or more service-disabled veterans.”
Id.
§ 125.29(b). Such protests are handled first by an SBA
area field office and then are appealable to OHA. See
id. §§ 125.30-25.31; see also generally id. Part 134
(“Rules of Procedure Governing Cases Before the Office of Hearings and Appeals”).
Eligibility in SBA’s SDVOSBC program requires
the small business concerns to be “at least 51% unconditionally and directly owned by one or more servicedisabled veterans.” 13 C.F.R. § 125.12. The SDVOSBC
program, in contradistinction to the VA set-aside program, does not include a definition of unconditional
ownership. See 13 C.F.R. § 125.11 (specifying definitions important to the SDVOSB program, but omitting
a definition of “unconditional ownership”). Instead,
SBA uses an interpretation by OHA of what is now 13
C.F.R. § 125.12, as set forth in The Wexford Group
Int’l, Inc., SBA No. SDV-105, 2006 WL 4726737 (June
29, 2006). There OHA determined “the plain and ordinary meaning of the word” “unconditional” by looking
to a dictionary. Wexford, 2006 WL 4726737, at *6 & n.2.
From the dictionary definition, OHA determined that
“in the context of 13 C.F.R. § 125.[12],”
unconditional necessarily means there are no
conditions or limitations upon an individual’s
present or immediate right to exercise full control and ownership of the concern. Nor can
there be any impediment to the exercise of the
full range of ownership rights. Thus, a servicedisabled veteran: (1) Must immediately and
fully own the company (or stock) without hav-

30a
ing to wait for future events; (2) Must be able
to convey or transfer interest in his ownership
interest or stock whenever and to whomever
they choose; and (3) Upon departure, resignation, retirement, or death, still own their stock
and do with it as they choose. In sum, servicedisabled veterans must immediately have an
absolute right to do anything they want with
their ownership interest or stock, whenever
they want.
Id. This absolutist interpretation is a sharp departure
from the definitions promulgated via regulation in
SBA’s other small business programs. See 13 C.F.R.
§§ 124.3 (defining “unconditional ownership” for the
8(a) program for small disadvantaged businesses),
127.201 (defining “unconditional ownership” for the
Women-Owned Small Business program). The definitions in those programs build in nuances virtually identical in effect to VA’s definition, particularly the allowance to “follow normal commercial practices” common
to each of them. See 38 C.F.R. § 74.3; 13 C.F.R.
§§ 124.3, 127.201. For SBA, however, service-disabled
veterans must have “an absolute right to do anything
they want with their ownership interest or stock,
whenever they want.” See Wexford, 2006 WL 4726737
at *6.

31a
FACTS6
Veterans is a corporation organized under the laws
of the State of New York. Compl. ¶ 24.7 Ronald Montano, a service-disabled veteran, owns 51 percent of the
company and Greg Masone owns the remaining 49 percent. Compl. ¶¶ 22, 24. On July 17, 2013, VA, acting
through the CVE, verified Veterans as a qualified
SDVOSB on its VIP database. Veterans Contracting,
133 Fed. Cl. at 616. The VA carried out subsequent
annual site visits between 2014 and 2016, evaluating
and reaffirming Veterans’ eligibility to remain in the
database as an SDVOSB. Id. at 617.
On January 5, 2017, Veterans learned that it was
the lowest-priced bidder on an SDVOSB set-aside, solicitation number W912DS-16-B-0017, issued by the
United States Army Corps of Engineers “for the removal of hazardous materials and demolition of buildings at the St. Albans Community Living Center in
Jamaica, New York.” Compl. ¶¶ 7-8, 10. On January 11,
Williams Building Company (“Williams”), second-place
bidder on the solicitation, filed a protest with the contracting officer, challenging both Veterans’ size and
status as an SDVOSB. See Compl. ¶ 11; AR 16-126 to

6

The recitations that follow constitute findings of fact by the
court drawn from the administrative record of the procurements
filed pursuant to Rule 52.1(a) of the Rules of the Court of Federal
Claims (“RCFC”). See Bannum, Inc. v. United States, 404 F.3d
1346, 1356 (Fed. Cir. 2005) (explaining that bid protest proceedings “provide for trial on a paper record, allowing fact-finding by
the trial court”).
7

Although Veterans filed amended complaints, the basic allegations of fact were set out in the original complaint, and that
complaint will be cited for background in this opinion.

32a
39.8 The contracting officer referred the protest to
SBA, see AR Tabs 14-15, pursuant to SBA regulations,
see 13 C.F.R. §§ 125.2, 125.14(b).
An SBA area office issued a size determination on
February 2, 2017, concluding that Veterans was a small
business. AR 12-104. Later that month, the area office
also issued its status determination, concluding that
Veterans “met the [SDVOSB] eligibility requirements
at the time of its [bid].” AR 13-112 to 17. Williams appealed the status determination to SBA’s OHA on February 28, 2017. See AR Tab 11. Before OHA rendered
a decision on Williams’ appeal, SBA requested that the
SBA area office’s determination be remanded “for further review and investigation.” AR 9-76 to 78. OHA
granted that remand on April 3. AR 8-69 to 73. On remand, the SBA area office reversed itself, determining
that Veterans was ineligible to bid as an SDVOSB, and
therefore sustained Williams’ protest. See AR 2-3 to
12. The SBA area office explained that, in light of Veteran’s shareholder agreement, Mr. Montano did not unconditionally own Veterans because that agreement
restricted his heirs’ ability to convey or transfer Veterans stock. See Veterans Contracting, 133 Fed. Cl. at
617.
On July 21, 2017, three days after the SBA area office determination, “VA informed Veterans that it was
being removed from the VA VIP database in accordance with 38 C.F.R. § 74.2(e) based on the SBA area
8

Citations to the administrative record refer to the record as
filed on August 9, 2017, as corrected on August 16, 2017, and as
supplemented on September 20, 2017. The record is divided into
tabs and paginated sequentially. In citing to the record, the court
will first designate the tab, followed by the page number. For example, AR 16-126 refers to tab 16, page 126 of the administrative
record.

33a
office determination that Veterans did not qualify as a
SDVOSB.” Veterans Contracting, 133 Fed. Cl. at 617
(internal brackets and quotations marks omitted). Veterans filed this bid protest on July 28, challenging the
VA’s decision to remove it from the VIP database and
the underlying determination by SBA. See generally
Compl. Veterans alleged that the government’s actions
precluded it from competing for two upcoming “VA
SDVOSB set-aside procurements.” Compl. ¶ 1. The
first solicitation, number VA242-17-B- 0713, was a relocation contract regarding the “SPS Castle Point Campus VA Hudson Valley Health Care System” in Wappingers Falls, New York (“relocation solicitation”). See
Compl., Ex. 2. The second solicitation, number VA24217-B-0723, was a roof replacement contract at the
Northport VA Medical Center in Northport, New York
(“roofing solicitation”). See Compl., Ex. 1. Veterans
moved for a preliminary injunction, specifically requesting “that the court set aside CVE’s decision to decertify Veterans as a SDVOSB, order the VA to reinstate Veterans into the VIP database, and enable Veterans to compete for the SDVOSB set-aside roofing
and relocation solicitations.” Veterans Contracting, 133
Fed. Cl. at 618. On August 22, this court granted in
part Veterans’ motion for a preliminary injunction, ordering VA to “restore Veterans to the VIP database of
approved SDVOSB entities.” Id. at 624.
The preliminary injunction explicitly “allowed
[Veterans] to compete for the relocation solicitation,”
id., because the government had not proceeded with
the solicitation process, instead “extend[ing] the proposal deadline,” Veterans Contracting, 133 Fed. Cl. at
618, before suspending it pending the resolution of Veterans’ motion for a preliminary injunction, see Hr’g Tr.

34a
7:12-24 (Nov. 21, 2017).9 After being restored to the
VetBiz VIP database, Veterans submitted a bid for the
relocation solicitation; no award has as yet been made.
Hr’g Tr. 28:5-17. Contrastingly, the court did not explicitly address the effects of the preliminary injunction
on the roofing solicitation because, although Veterans
had timely submitted its bid, “the government [indicated] that the contracting officer ha[d] started the process of cancelling the solicitation and plan[ned] to reissue it.” See Veterans Contracting, 133 Fed. Cl. at 618
(internal quotation marks omitted).
VA received four bids for the roofing solicitation
but only two were responsive, i.e., they met “the terms
and conditions set forth in the solicitation,” and only
responsive bids may be considered for the contract
award. See AR 96-924. Veterans was one of the bids
that was “deemed unresponsive” and was “removed
from consideration due to a lack of [V]et[B]iz certification” as of the application deadline, July 28, 2017. See
id. The two responsive bidders’ proposals were [***]
and [***] for a project with an independent
“[g]overnment estimate [(“IGE”)] of $3.6 million.” Id.
The two unresponsive bidders, Veterans and [***] had
offered to do the work for [***] and [***] respectively.
AR 88-901; 86-887. Because the responsive bids were
more than “[***] higher than the IGE,” the contracting
officer determined that the bids were “not fair and reasonable” and sought “to cancel the solicitation.” AR 94922. The VA ultimately cancelled the roofing solicitation on August 22, 2017, “due to [the] bids being much
higher than [the] government could deem reasonable.”
9

The date will be omitted from later citations to the transcript of the hearing on the merits conducted on November 21,
2017.

35a
AR 99-930. VA indicated that it “plan[ned] to issue a
new solicitation for the [roofing solicitation].” Id.
Veterans sought and was granted leave to supplement its pleadings to protest the cancellation of the
roofing solicitation. See Order Granting in Part and
Den. in Part Mot. to Suppl. Pleadings, ECF No. 34; Order Granting Mot. to Suppl. Pleadings, ECF No. 37; Order Granting Pl.’s Mot. for Leave to File a Second
Suppl. Compl., ECF No. 46. It alleges that the cancellation was pretextual because its unresponsive bid was
within the solicitation’s “scope of construction.” See
Am. Suppl. Compl. for Declaratory and Inj. Relief
(“Suppl. Compl.”) ¶ 19, ECF No. 44-1. Veterans requests a declaratory judgment that “the VA acted unreasonably … when it cancelled the solicitation … under
pretext,” and “when it removed [Veterans] from the
[V]et[B]iz database without first providing [n]otice and
an opportunity to respond.” Suppl. Compl. at 11. Veterans seeks “a permanent injunction ordering the VA to
reverse its determination to cancel [the roofing] solicitation … or [refrain from making] any further changes to
the procurement until this court has fully adjudicated
[Veterans’] SDVOSB status” and “to restore [Veterans]
to the [V]et[B]iz database[,] retroactively effective no
later than July 21, 2017.” Suppl. Compl. at 11. Finally,
it also seeks an award of “attorneys’ fees and expenses;
and … such other and further relief as is equitable and
just.” Suppl. Compl. at 11; see generally Pl.’s Mot. for
Judgment on the Admin. Record (“Pl.’s Mot.”), ECF No.
49. The government opposed Veterans’ motion, filing a
cross-motion for judgment on the administrative record.
See generally Def.’s Cross-Mot. for Judgment on the
Admin. Record and Resp. to Pl.’s Mot. for Judgment on
the Admin. Record (“Def.’s Cross-Mot.”), ECF No. 50.

36a
All issues have been fully briefed and argued and are
now ready for disposition.
STANDARDS OF REVIEW
Standards in the Administrative Procedure Act
(“APA”), 5 U.S.C. § 706, govern the court’s review of a
challenge to an agency’s decisions regarding contractual solicitations or awards. See 28 U.S.C. § 1491(b)(4)
(“In any action under this subsection, the courts shall
review the agency’s decision pursuant to the standards
set forth in section 706 of title 5.”). Under the APA,
courts may set aside agency decisions that are “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law,” 5 U.S.C. § 706(2)(A), subject to the traditional balancing test applicable to a
grant of equitable relief. See PGBA, LLC v. United
States, 389 F.3d 1219, 1224-28 (Fed. Cir. 2004). Where
an agency decision is so set aside, “the courts may
award any relief that the court considers proper, including declaratory and injunctive relief except that
any monetary relief shall be limited to bid preparation
and proposal costs.” 28 U.S.C. § 1491(b)(2). The question of whether the court would have applied the procurement regulations in a different manner than did the
agency is irrelevant to this inquiry. See Honeywell,
Inc. v. United States, 870 F.2d 644, 648 (Fed. Cir. 1989).
The court may not “substitute its judgement for that of
the agency.” Miles Constr., 108 Fed. Cl. at 798 (citing
Keeton Corrs., Inc. v. United States, 59 Fed. Cl. 753,
755 (2004) (quoting Citizens to Preserve Overton Park,
Inc. v. Volpe, 401 U.S. 402, 416 (1971), abrogated on
other grounds as recognized in Califano v. Sanders,
430 U.S. 99, 105 (1977))). The court may overturn an
agency decision only “if ‘(1) the procurement official's
decision lacked a rational basis; or (2) the procurement

37a
procedure involved a violation of regulation or procedure.’” Centech Grp., Inc. v. United States, 554 F.3d
1029, 1037 (Fed. Cir. 2009) (quoting Impresa Construzioni Geom. Domenico Garufi v. United States, 238
F.3d 1324, 1332 (Fed. Cir. 2001)). In short, the court
“look[s] to see whether the agency considered the relevant factors and made a rational determination.” Keeton Corrs., 59 Fed. Cl. at 755 (citing Advanced Data
Concepts, Inc. v. United States, 216 F.3d 1054, 1057-58
(Fed. Cir. 2000)).
ANALYSIS
A. Removal from and Restoration
to the VetBiz VIP Database
Veterans claims that its removal from the VetBiz
VIP database was “arbitrary, capricious, [and] contrary
to established law” on two grounds. See Mem. … in
Support of Pl.’s Appl. for TRO, Prelim. Inj., Permanent
Inj., and Declaratory Judgment (Pl.’s Mem.) at 15, ECF
No. 47. First, “CVE made the decision to remove [Veterans] from the … database without considering 38
C.F.R. § 74.22” in violation of “the APA[ and Veteran’s]
constitutionally protected procedural due process
rights.” Id. Second, Veterans’ removal was “unsupported by the facts” because “[t]here is no evidence in
the record that CVE even reviewed the SBA’s basis for
issuing the adverse determination.” Id. Notably, Veterans is not challenging 38 C.F.R. § 74.22 on constitutional grounds or otherwise. See Hr’g Tr. 10:1-2 (adverting that the government asserted that Veterans “is
somehow challenging the regulation, [Subsection 74.22;
Veterans] is not”); Pl.’s Mot. at 11. It is Veterans’ view
that Subsection 74.22 “establishes the procedural due
process safeguards for removing an SDVOSB from the
… database” and that it “makes no exceptions for nega-

38a
tive SBA determinations” despite Subsection 74.2(e).
See Pl.’s Mot. at 14. As such, argues Veterans, VA’s
denial of a 30-day notice and an opportunity to “explain[] why the proposed ground(s) [did] not justify
cancellation” was a failure to follow its own regulations
and thus necessarily was arbitrary and capricious. See
id.; 38 C.F.R. § 74.22.
The government argues that the CVE did no more
than act “in accordance with 38 C.F.R. § 74.2(e), which
states that” CVE “will … immediately remove[]” the
business adjudicated ineligible by SBA from the database. Def.’s Cross-Mot. at 18. Further, the government asserts, Subsections 74.22 and 74.2(e) “clearly apply to separate actions.” Id. at 19. Subsection 74.22 only applies when CVE believes that “a participant’s verified status should be cancelled,” whereas Subsection
74.2(e) pertains to ineligibility due to SBA’s determination. See id. at 19-20.
The court concurs with the government that the
two regulations at issue do indeed govern separate actions. When the CVE believes that an SDVOSB has
become ineligible, it follows the procedures set out in
Subsection 74.22, including providing 30-days’ notice
and the opportunity to make an argument to the agency. In contrast, Subsection 74.2(e) provides the agency
with a streamlined process, piggybacking off SBA’s
proceedings. See 38 C.F.R. § 74.2(e). Any argument by
Veterans that it was denied due process in the context
of regulatory protections is ultimately unconvincing in
this case. Veterans was a party to the SBA proceeding
and had an opportunity to be heard before the agency.
Additionally, Subsection 74.2(e) has been in place since
2010; Veterans had notice that an adverse decision by
the SBA could trigger its removal from the VIP database.

39a
Even so, this court disagrees with the government
that Subsection 74.2(e) relieves CVE from any obligation to look beyond the fact that SBA has issued an adverse determination before removing an SDVOSB from
the VetBiz VIP database. As explained above, the eligibility requirements in the VA and SBA SDVOSB setaside programs are similar in some respects but are
materially divergent in others. The differences are insignificant if and when the SBA protest giving rise to
removal from the VIP database treats an area in which
the regulations are the same or similar, e.g., size of the
business; if SBA determines that an SDVOSB is not
small then it would be justifiably disqualified from both
programs. But, as in this case, an uncritical application
of Subsection 74.2(e) would require an SDVOSB’s immediate removal from the VetBiz VIP database if the
business fails to meet the SBA’s Wexford definition of
“unconditional” despite meeting the VA’s definition of
the term as set out at 38 C.F.R. § 74.3(b).
It is unquestionably true that “an agency must
abide by its own regulations,” AMS Assocs., Inc. v.
United States, 737 F.3d 1338, 1343 (Fed. Cir. 2013) (citing Fort Stewart Sch. v. Federal Lab. Rel. Auth., 495
U.S. 641, 654 (1990), but it is equally true that it must
apply them rationally. See Motor Vehicle Mfrs. Ass’n
of U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29, 43 (1983). Subsection 74.2(e) does not take account
of the differences between these two programs, and it
is arbitrary for VA to mechanistically apply Subsection
74.2(e) without examining the basis for SBA’s ruling.
In this case, VA’s removal of Veterans from the database cost Veterans the opportunity to compete for a
contract for which it was otherwise eligible. In light of
the distinct definitions of “unconditional ownership” in
the two programs, CVE must look beyond the fact of a

40a
ruling by SBA, to determine whether it was based on
grounds consistent with or contrary to VA’s eligibility
regulations. VA’s letter notifying Mr. Montano of Veterans’ removal stated only that the SBA “decision
found that Veterans … was not owned and controlled
by one or more [s]ervice-[d]isabled [v]eterans.” AR. 414. There was no consideration of or finding that Veterans was ineligible due to an eligibility requirement
consistent with VA’s regulations. In sum, there was no
“rational connection between the facts found and the
choice made,” thus rendering CVE’s action arbitrary
and capricious. See State Farm, 463 U.S. at 43 (citing
Burlington Truck Lines v. United States, 371 U.S. 156,
168 (1962), superseded by statute on other grounds as
recognized in New York Shipping Ass’n v. Federal
Mar. Comm’n, 854 F.2d, 1338 (D.C. Cir. 1988)).
Therefore, the preliminary injunction that restored
Veterans to the VetBiz VIP database is hereby reaffirmed and made permanent.
B. The Relocation Solicitation
Both counsel for the government and counsel for
Veterans have represented to the court that, with regard to the relocation solicitation, Veterans has not
been prejudiced by its wrongful removal from the VetBiz VIP database. See Hr’g Tr. 7:12-17, 28:5-17. The
VA voluntarily extended the deadlines for proposals
responding to the relocation solicitation. Hr’g Tr. 28:611. Upon being restored to the database, Veterans
submitted a bid and has been able to compete for the
relocation solicitation. Id. In the absence of any prejudice, the court need not take any further action as to
that pre-award procurement.

41a
C. The Roofing Solicitation Cancellation
Veterans challenges the cancellation of the roofing
solicitation as arbitrary and capricious, alleging that it
was “pretextual” and that the agency lacked a “compelling reason.” Pl.’s Mem. at 8-9 (citing Overstreet Elec.
Co., v. United States, 47 Fed. Cl. 728, 732 (2000) (“[A]n
award must be made to that responsible bidder who
submitted the lowest responsive bid, unless there is a
compelling reason to reject all bids and cancel the invitation.”) (internal quotation marks omitted)); see also
Suppl. Compl. ¶ 19. Veterans argues that the government’s rationale that “none of the responsive offers
were reasonably priced” is “unreasonable on its face”
because Veterans’ bid was reasonable and “CVE illegally removed [Veterans] from the … database.” Pl.’s
Mem. at 9. As a remedy for this violation, Veterans
asks the court to “retroactive[ly] render[ Veterans] …
eligible to compete for the [roofing] solicitation,” effectively awarding Veterans the contract. See Pl.’s Mot.
at 15 (heading).
The government disagrees, arguing that CVE had
a compelling reason: “[T]he bids received were over
the budget allocated for the project.” Def.’s Cross-Mot.
at 13. The government explains that while Veterans’
bid was only [***] percent over the IGE, Veterans was
not a responsive bidder because it was not in the VIP
database “at the time it submitted its bid, which the
solicitation required.” Id. The solicitation states: “All
prospective bidders must be … verified/visible/certified
in VIP VetBiz … at the time of offer submission and
before award of this procurement.” AR 80-827. When
the contracting officer checked the database on July 28,
the application deadline, to verify Veterans’ status, it
was not there. See AR 92-918. The government also
contends that even if Veterans is entitled to be re-

42a
stored to the VIP database, there is no basis for a retroactive restoration. Def.’s Cross-Mot. at 22-25. Rather, the government asserts, the typical remedy for
such wrongful removals is to “extend [the business’]
year-long verified eligibility … to account for the days
it was wrongfully excluded from the VIP database.”
Id. at 23 (citing KWV, Inc. v. United States, 111 Fed.
Cl. 119, 128 (2013)).
The court concurs with the government. The court
may overturn an agency decision only “if ‘(1) the procurement official’s decision lacked a rational basis; or
(2) the procurement procedure involved a violation of
regulation or procedure.’” Centech Grp., 554 F.3d at
1037 (quoting Impresa Construzioni, 238 F.3d at 1332).
The contracting officer looked only to the fact that
CVE had removed Veterans from the VIP database
and could not have known that CVE had acted arbitrarily. He followed the normal procedures for handling
the procurement. Because Veterans did not meet the
requirements of a solicitation, it was ineligible to compete for the contract. With Veterans disqualified, the
remaining responsive bids were sufficiently above the
IGE that the officer had discretion to cancel and resubmit the solicitation. He did so. In short, there was
a rational connection between the facts as the contracting officer understood them and the choices he made.
See State Farm, 463 U.S. at 43. By acting rationally
and following the proper procurement procedures, he
neither acted arbitrarily nor capriciously, and this court
cannot overturn his decision.
Veterans argues that Miles, 108 Fed. Cl. 792, supports its request for retroactive restoration. Pl.’s Mot.
at 15-16. Miles does not require that result. Unlike
Veterans, Miles Construction was eligible under the
requirements of the solicitation when it submitted its

43a
bid. See Miles, 108 Fed. Cl. at 795-96. It was only after
it had been determined to be the lowest bidder that its
status was challenged and it was delisted. Id. When
the court restored it to the database and ordered the
agency to “consider Miles’ apparent low bid in response
to the [s]olicitation,” it was with the understanding that
it was “likely that [Miles Construction would] have received the award but for” the intervening agency decision. Id. at 798, 806-07. In contrast, at no time between
the deadline for bid submission and the cancellation of
the roofing solicitation was Veterans eligible to compete for the roofing contract. This court issued a preliminary injunction on August 22, 2017, setting aside
the delisting of Veterans and restoring it to the VetBiz
VIP database, and that date demarcates Veterans’ eligibility to compete for VA SDVOSB set-asides.
That is hardly to say that Veterans was not prejudiced by the CVE’s arbitrary application of VA’s regulation as to the roofing solicitation or that no remedy is
available. While the court does not believe the retroactive injunctive relief sought by the Veterans is proper,
the court does award Veterans its reasonable bid preparation and proposal costs for the roofing solicitation.
CONCLUSION
For the reasons stated, Veterans’ motion for judgment on the administrative record is GRANTED IN
PART and DENIED IN PART, the government’s
cross-motion for judgement on the administrative record is GRANTED IN PART and DENIED IN
PART.10 This court’s preliminary injunction dated Au10

Veterans’ motions for a second preliminary injunction,
ECF Nos. 31 and 47, have been consolidated with the merits in
accord with RCFC 65(a)(2) and thus are moot. The government’s

44a
gust 22, 2017, which set aside CVE’s decision removing
Veterans from the VetBiz VIP database, is hereby
made permanent. Veterans’ year-long eligibility in the
VIP database shall be extended by 34 days to account
for the period during which it was wrongfully excluded
from competing on VA procurement set-asides. Although Veterans is denied retroactive injunctive relief
for the cancellation of the roofing solicitation, it shall
recover its reasonable bid preparation and proposal
costs regarding that solicitation.
There being no just reason for delay, the clerk shall
enter judgment under RCFC 54(b) on Veterans’ claims
addressed by this opinion and order.
Insofar as bid preparation and proposed costs are
concerned, Veterans shall submit a reckoning of its bid
preparation and proposal costs on or before January 17,
2018. The government shall respond to Veterans’ submission of such costs by January 31, 2018.
It is so ORDERED.
s/ Charles F. Lettow
Charles F. Lettow
Judge

motions to partially dismiss for lack of subject matter jurisdiction,
for failure to state a claim, and to strike, filed with its response to
Veterans’ motions for preliminary injunction, ECF No. 48, are
likewise superseded and thus are moot.

45a
APPENDIX D
IN THE UNITED STATES COURT OF FEDERAL CLAIMS
No. 17-1015C
(Filed Under Seal: August 22, 2017)
(Reissued: August 29, 2017)
VETERANS CONTRACTING GROUP, INC.,
Plaintiff,
v.
UNITED STATES,
Defendant.
Pre-award bid protest; motion for a preliminary
injunction; protester’s qualification as a service-disabled
veteran-owned small business; jurisdiction; standing;
differences between VA’s and SBA’s regulations;
likelihood of success on the merits; equitable factors
OPINION AND ORDER1
LETTOW, Judge.
This pre-award bid protest is before the court on
plaintiff’s motion for a preliminary injunction and the
government’s motion to dismiss. Plaintiff, Veterans
1

Because this opinion and order might have contained confidential or proprietary information within the meaning of Rule
26(c)(1)(G) of the Rules of the United States Court of Federal
Claims (“RCFC”) and the protective order entered in this case, it
was initially filed under seal. The parties were requested to review this decision and provide proposed redactions of any confidential or proprietary information. After the court held a hearing
on proposed redactions, no redactions were allowed.

46a
Contracting Group (“Veterans”), previously was verified by the United States Department of Veterans Affairs (“VA”) as a service-disabled veteran-owned small
business (“SDVOSB”). It has a history of bidding on
and securing awards of contracts from the VA that are
set aside for competition among firms qualifying as
SDVOSBs. It planned to submit offers on two such solicitations announced by VA, but very recently it was
disqualified as a SDVOSB as a result of a dispute that
arose after Veterans received a contract award in January 2017 that was set aside for SDVOSBs. After another bidder protested the award, an area office of the
Small Business Administration (“SBA”) determined in
July 2017 that Veterans did not qualify as a SDVOSB
and was therefore ineligible for the award. Shortly
thereafter, the VA informed Veterans that it was being
removed from the VA database for qualified
SDVOSBs. Veterans then filed this bid protest with
respect to the two SDVOSB procurements that have
not yet been awarded, alleging that it is a qualified
SDVOSB eligible for an award in those procurements
and it should not have been removed from the VA database.
In seeking a preliminary injunction, Veterans requests that the court set aside the VA’s decision to decertify Veterans as a SDVOSB, order the VA to reinstate Veterans into the SDVOSB database, and bar the
VA from acting on the solicitations for awarding the
two proposed contracts if and to the extent that Veterans is precluded from participating in the competition
for those contracts. The government has opposed that
motion and moved to dismiss Veterans’ complaint. For
the reasons stated, Veterans’ motion is granted in part
and the government’s motion is denied.

47a
FACTS2
A. Veterans’ Inclusion in the SDVOSB Database
Veterans is a corporation organized under the laws
of New York. Compl. ¶ 24. Ronald Montano, a servicedisabled veteran, owns 51 percent of the company and
Greg Masone owns the remaining 49 percent. Compl.
¶¶ 22, 24. On July 17, 2013, the VA, acting through the
Center for Veterans Enterprise (now known as the
Center for Verification and Evaluation) (“CVE”), verified Veterans as a qualified SDVOSB on its Vendor Information Pages (“VIP”) database. See Pl.’s Mem. of
Points and Authorities in Support of Pl.’s Appl. for
TRO, Prelim. Inj., Permanent Inj. and Declaratory
Judgment (“Pl.’s Mem.”), Ex. W (Letter from Andrea
M. Gardner-Ince, Director, CVE, to Mr. Ronald Montano (July 17, 2013)), ECF No. 12-3. A business must
be included on the VA’s VIP database to qualify as an
eligible SDVOSB for a contract award. See 38 U.S.C.
§ 8127(e), (f); 48 C.F.R. § 804.1102. The VA subsequently performed site visits and reaffirmed Veterans’
eligibility in 2014, 2015, and 2016. See Pl.’s Mem. at 9,
ECF No. 12-2. The VA explained that Veterans satisfied the eligibility requirements in 38 C.F.R. Part 74,
see, e.g., Pl.’s Mem., Ex. EE (Letter from CVE (Aug.
26, 2016)), which are distinct from the SDVOSBeligibility requirements set forth in the SBA regulations, as discussed infra.

2

The recitations that follow constitute findings of fact by the
court drawn from the administrative record of the procurement
filed pursuant to RCFC 52.1(a). See Bannum, Inc. v. United
States, 404 F.3d 1346, 1356 (Fed. Cir. 2005) (explaining that bid
protest proceedings “provide for trial on a paper record, allowing
fact-finding by the trial court”).

48a
B. SBA’s Decision Regarding Veterans’
SDVOSB-Eligibility
On January 5, 2017, Veterans learned that it was the
lowest-priced bidder on an Invitation for Bids, solicitation number W912DS-16-B-0017, issued by the United
States Army Corps of Engineers “for the removal of
hazardous materials and demolition of buildings at the
St. Albans Community Living Center in Jamaica, New
York.” Compl. ¶¶ 7, 10. The award was set aside for
SDVOSBs, and Veterans certified itself as such in making its bid. Compl. ¶¶ 8-9. On January 11, 2017, Williams Building Company (“Williams”), another bidder
that was second in line for the award, filed a protest with
the contracting officer. See AR 16-126 to -127.3 Williams
asserted that Veterans was ineligible because it did not
meet the size requirements for the procurement or qualify as a SDVOSB. Id. The contracting officer referred
the protest to SBA, see AR Tabs 14-15, which was an option under the SBA’s and VA’s regulations, see 13 C.F.R.
§§ 125.2, 125.14(b); 38 C.F.R. § 74.2(e).
Veterans thereafter provided additional information to SBA, including its shareholder agreement.
AR Tabs 41-42; see also AR Tabs 43-60. An SBA area
office determined that Veterans was eligible for the
award in February 2017. AR Tab 13. Williams appealed that decision to the Office of Hearings and Appeals (“OHA”), AR Tab 11, and submitted supplemental briefing regarding Veterans’ status as a
SDVOSB, specifically focusing on the company’s share3

Citations to the administrative record refer to the record as
filed on August 9, 2017 and corrected on August 16, 2017. The
record is divided into tabs and paginated sequentially. In citing to
the record, the court will first designate the tab, followed by the
page number. For example, AR 16-126 refers to tab 16, page 126
of the administrative record.

49a
holder agreement, AR Tab 10. Before OHA addressed
that appeal, however, SBA requested a remand in
March 2017 to “reconsider the issues raised on
[a]ppeal.” AR 9-76 to -78. OHA granted that request.
AR 8-73.
On July 18, 2017, the SBA area office determined
that Veterans did not satisfy the SDVOSB eligibility
requirements for the procurement and therefore sustained Williams’ protest. AR 2-3. The SBA office explained that Mr. Montano, a service-disabled veteran,
did not “unconditionally” own at least 51% of Veterans,
as required by 13 C.F.R. § 125.12. AR 2-7 to -8. SBA
specifically examined Veterans’ shareholder agreement
and found that “upon shareholder death, incompetency,
or insolvency, all of his or her shares must be purchased
by the corporation at the Certificate of Value price.”
AR 2-7; see also AR 48-450. According to SBA, that
language restricted Mr. Montano’s and his heirs’ ability
“to convey or transfer their [Veterans’] stock,” thus
placing “impermissible conditions” on Mr. Montano’s
ownership interest. AR 2-7 (relying upon International Logistics Grp., LLC, SBA No. VET-162, 2009 WL
5942359 (Oct. 1, 2009); Wexford Group Int’l, Inc., SBA
No. SDV-105, 2006 WL 4726737 (June 29, 2006)). Additionally, SBA found that Veterans’ shareholder agreement prevented Mr. Montano from controlling the corporation, as required by 13 C.F.R. § 125.13. See AR 2-8
to -10. Veterans has stated that it appealed SBA’s decision on August 1, 2017. Pl.’s Mem. at 8 n.2.4
4

On July 25, 2017, before filing its OHA appeal, Veterans
submitted an amended and restated shareholder agreement to
SBA and requested reinstatement as a SDVOSB. Pl.’s Mem., Ex.
S (E-mail from Ron Montano to Amy Kim, SBA (July 25, 2017)).
SBA informed Veterans that it could either request a reexamination and forgo the OHA appeal, or file an OHA appeal and

50a
C. The VA’s Removal of Veterans from the
VIP Database
On July 21, 2017, the VA informed Veterans that it
was “being removed from the VA [VIP] database in accordance with 38 C.F.R. § 74.2(e) based on [the SBA area office determination that Veterans did not qualify as a
SDVOSB].” AR 4-14; see also AR Tab 1. Under 38
C.F.R. § 74.2(e), “[a]ny firm registered in the VetBiz
VIP database that is found to be ineligible due to an
SBA protest decision or other negative finding will be
immediately removed from the VetBiz VIP database.”
Further, “[u]ntil such time as CVE receives official notification that the firm has proven that it has successfully
overcome the grounds for the determination or that the
SBA decision is overturned on appeal, the firm will not
be eligible to participate in the [SDVOSB] program.” Id.
D. Veterans’ Current Bid Protest
Veterans filed this bid protest on July 28, 2017, challenging the VA’s decision to remove it from the VIP database and the underlying determination by SBA that it
is ineligible to compete as a SDVOSB. Compl. ¶ 1. Veterans alleges that the government’s actions have precluded it from competing for two upcoming “VA
SDVOSB set-aside procurements.” Compl. ¶¶ 1-2. The
first solicitation, number VA242-17-B-0723, is a roof replacement contract at the Northport VA Medical Center
in Northport, New York (“roofing solicitation”). See
Compl., Ex. 1; Def.’s Resp. to Pl.’s Mot. for a Prelim. Inj.
and TRO and Def.’s Mot. to Dismiss (“Def.’s Resp.”) at 6,
ECF No. 17. Veterans submitted its bid on the roofing
solicitation before the deadline of July 28, 2017, see Pl.’s
request a re-examination after OHA’s decision. Pl.’s Mem., Ex. T
(E-mail from Amy Kim, SBA to Joseph Whitcomb (July 28, 2017)).
Veterans chose to file the OHA appeal.

51a
Mem. at 2, but the government now represents that “the
contracting officer has started the process of cancelling”
the solicitation and plans to reissue it, Def.’s Resp. at 11
n.4.5 The second solicitation, number VA242-17-B-0713,
is a relocation contract regarding the “SPS Castle Point
Campus VA Hudson Valley Healthcare System” in Castle Point, New York (“relocation solicitation”). See
Compl., Ex. 2; Def.’s Resp. at 6. The government has
extended the proposal deadline for the relocation solicitation from August 2, 2017 to August 23, 2017 at 1:30
p.m. See Def.’s Notice of Revised Solicitation Deadline,
ECF No. 7.
On August 5, 2017, Veterans moved for a preliminary injunction. See generally Pl.’s Mot. for Prelim. Inj.
(“Pl.’s Mot.”), ECF No. 12.6 It specifically requests that
the court set aside CVE’s decision to decertify Veterans
as a SDVOSB, order the VA to reinstate Veterans into
the VIP database, and enable Veterans to compete for
the SDVOSB set-aside roofing and relocation solicitations. See id. On August 11, 2017, the government opposed that motion and moved to dismiss the complaint.
See generally Def.’s Resp. Veterans’ motion for a preliminary injunction and the government’s motion to dismiss
were addressed at a hearing held on August 16, 2017.

5

On August 22, 2017, the government filed a notice advising
that “DVA intends to cancel the solicitation in its entirety today
due to the bids received being over the budget allocated for the
project, and a new solicitation will be posted.” Def.’s Notice of
Solicitation Cancellation, ECF No. 21.
6

Veterans also concurrently submitted an application for a
temporary restraining order, see Pl.’s Appl. for TRO, ECF No. 121, but that application is superseded by the motion for a preliminary injunction.

52a
JURISDICTION
A. Subject-Matter Jurisdiction
The Tucker Act, as amended, provides this court
with jurisdiction to “render judgment on an action by
an interested party objecting to a solicitation by a Federal agency for bids or proposals for a proposed contract or to a proposed award or the award of a contract
or any alleged violation of statute or regulation in connection with a procurement or a proposed procurement.” 28 U.S.C. § 1491(b)(1), added by the Administrative Dispute Resolution Act of 1996, Pub. L. No. 104320, § 12, 110 Stat. 3870, 3874; see also Systems Application & Techs., Inc. v. United States, 691 F.3d 1374,
1380-81 (Fed. Cir. 2012). The court accordingly has jurisdiction over three types of bid protests: (1) a preaward protest, (2) a post-award protest, and (3) “any
alleged violation of statute or regulation in connection
with a procurement or a proposed procurement.” 28
U.S.C. § 1491(b)(1); see also OTI Am., Inc. v. United
States, 68 Fed. Cl. 108, 113 (2005) (describing and ruling
on the parameters of 28 U.S.C. § 1491(b)).
Veterans challenges the VA’s decision to remove it
from the VIP database, as well as the underlying SBA
ineligibility determination that led to the VA’s decision,
on the grounds that those decisions were arbitrary, capricious, and contrary to law. See Compl. ¶¶ 1-2; Pl.’s
Mem. At 13-14. Because Veterans has been declared to
be ineligible to compete for the SDVOSB solicitations
at issue in this case, Compl. ¶¶ 1-2, Veterans’ allegations fall within this court’s jurisdiction under the third
prong of Paragraph 1491(b)(1), see, e.g., RAMCOR
Servs. Grp., Inc. v. United States, 185 F.3d 1286, 1289
(Fed. Cir. 1999) (explaining that Subsection 1491(b) of
the Tucker Act “does not require an objection to the

53a
actual contract procurement. ... As long as a statute
has a connection to a procurement proposal, an alleged
violation suffices to supply jurisdiction”); KWV, Inc. v.
United States, 108 Fed. Cl. 448, 453 (2013) (finding jurisdiction where a bid protester alleged that the “VA
contravened its regulations governing [veteran-owned
small business] eligibility through an unreasonable and
inconsistent application of 48 C.F.R. § 819.307 ... and 38
C.F.R. Part 74”) (citing cases).
B. Standing
To have standing in a bid protest, the party bringing suit must be an “interested party.” See 28 U.S.C.
§ 1491(b)(1); Systems Application & Techs., 691 F.3d at
1382. A protester is an interested party if it can show
that “(1) it was an actual or prospective bidder or offeror, and (2) it had a direct economic interest in the procurement or proposed procurement.” Distributed Sols.,
Inc. v. United States, 539 F.3d 1340, 1344 (Fed. Cir.
2008) (citing Rex Serv. Corp. v. United States, 448 F.3d
1305, 1307 (Fed. Cir. 2006)). In a pre-award protest,
the protester must establish that it has a direct economic interest by demonstrating “a non-trivial competitive injury which can be addressed by judicial relief.”
Systems Application & Techs., 691 F.3d at 1382 (quoting Weeks Marine, Inc. v. United States, 575 F.3d 1352,
1362 (Fed. Cir. 2009)).
Regarding the first prong, Veterans has submitted
a bid on the roofing solicitation and is preparing a bid
for the relocation solicitation. See Pl.’s Mem. at 2;
Compl. ¶¶ 1-2.7 Thus, Veterans’ protest is in a pre7

Although the deadline for bids on the roofing solicitation has
passed, the government has not yet made an award for that contract, and it now states it is in the process of cancelling and reis-

54a
award posture regarding both of the solicitations and it
has satisfied the first prong as a prospective bidder.
Regarding the second prong, the government argues that Veterans has failed to show a direct economic
interest because it is not a qualified SDVOSB. Def.’s
Resp. at 9-14. According to the government, Veterans
cannot claim any direct economic interest because it
was de-listed from the VIP database and is thus ineligible for the SDVOSB procurements at issue in this
case. See id. As this court previously explained, however, the government’s “logic is circular and would preclude any qualified concern from ever seeking a judicial
remedy in response to an adverse decision by [the
VA].” Miles Constr., LLC v. United States, 108 Fed.
Cl. 792, 798 (2013) (finding standing where a bid protester challenged the VA’s determination that the protester did not qualify as a SDVOSB). The VA’s alleged
error itself has prevented Veterans from competing for
the solicitations. Thus, “[t]his is not a pre-award case
where the alleged violation is immaterial.” Weeks Marine, 575 F.3d at 1362 (finding standing where the protester had a “definite economic stake in the solicitation
being carried out in accordance with applicable laws
and regulations”) (citing CACI Field Servs., Inc. v.
United States, 854 F.2d 464, 466 (Fed. Cir. 1988)). Rather, the VA’s alleged error has deprived Veterans of
its “opportunity to compete” for the roofing and relocation solicitations, and such deprivation presents “sufficient economic harm to demonstrate prejudice for purposes of standing.” Magnum Opus Techs., Inc. v. United States, 94 Fed. Cl. 512, 533 (2010) (citing Distributed

suing the solicitation. Def.’s Resp. at 11 n.4; Def.’s Notice of Solicitation Cancellation.

55a
Sols., 539 F.3d at 1345; LABAT-Anderson, Inc. v. United States, 65 Fed. Cl. 570, 575-76 (2005)).8
Additionally, the government asserts that the court
lacks jurisdiction over SBA’s ineligibility decision because Veterans appealed that decision to OHA and the
appeal remains pending. Def.’s Resp. at 7-9. The government primarily relies on Palladian Partners, Inc. v.
United States, 783 F.3d 1243 (Fed. Cir. 2015), where a
protester filed a pre-award bid protest after a decision
by an SBA area office affected the solicitation at issue,
but did so while an OHA appeal of that decision filed by
another interested party was still pending. Id. at 1250,
1261. The Federal Circuit held that dismissal was required because appellant failed “to participate in the
pending OHA appeal” and therefore did not exhaust its
administrative remedies. See id. at 1254-61. The government’s reliance on Palladian is misplaced. Unlike
in Palladian, where the protester did not participate in
the appeal of a determination by an SBA area office
pursued by a different interested party, id. at 1246,
Veterans has challenged the VA’s decision to remove it
8

For its position on standing, the government relies on CS360, LLC v. United States, 94 Fed. Cl. 488 (2010), where a protester submitted a bid for a SDVOSB set-aside procurement but was
rejected by the contracting officer because it was not listed in the
VA’s VIP database. Id. at 493. The protester filed its bid protest
to enjoin the VA from awarding the contract or proceeding with
contract performance, but the court concluded that the protester
lacked standing, reasoning that the protester did not have a substantial chance of receiving the contract award because it was not
a qualified SDVOSB. Id. at 493-94, 500. Here, in contrast, Veterans has challenged the VA’s decision to remove it from the VIP
database on the ground that such actions have effectively prevented it from competing for awards under the solicitations directly at issue as well as other such solicitations. See, e.g., Compl. ¶¶
1-2. These allegations sufficiently present a non-trivial injury that
can be addressed through judicial relief.

56a
from the VIP database, see, e.g., Pl.’s Mem. at 9-10.
And, Veterans’ protest is not based upon its January
2017 contract award that was considered by SBA and is
currently on appeal to OHA, but rather is based upon
the final action of the VA and the two pre-award solicitations that are unrelated to the contract award currently pending before OHA. This court has jurisdiction
over Veterans’ allegations under the Tucker Act, as
discussed supra. Further, because the VA relied upon
the July decision by an SBA area office in removing
Veterans from the database, see AR 4-14, the reasoning
underlying SBA’s ineligibility determination is embedded within the VA’s decision and therefore falls within
the court’s jurisdiction as well.
In sum, the court has jurisdiction over Veterans’
bid protest.
ANALYSIS
A. Statutory and Regulatory Framework
To increase procurement opportunities for “small
business concerns owned and controlled by veterans
with service-connected disabilities,” Congress authorized the VA to set aside certain contracts for SDVOSBs
through the Veterans Benefits, Health Care, and Information Technology Act of 2006 (“Veterans Benefits
Act”), Pub. L. No. 109-461, Title V, 120 Stat. 3403, 3425
(codified at 38 U.S.C. §§ 8127-28). See 38 U.S.C.
§ 8127(a), (e). To qualify as an eligible SDVOSB, the
business must be verified by CVE and included on the
VA’s VIP database. See 38 U.S.C. § 8127(e), (f); 48
C.F.R. § 804.1102.
Under 38 C.F.R. § 74.3, “[a]n applicant or participant must be at least 51 percent unconditionally and
directly owned by one or more ... service-disabled vet-

57a
erans” to receive a SDVOSB certification from the VA.
With respect to unconditional ownership, Section 74.3
further states:
Ownership must not be subject to conditions
precedent, conditions subsequent, executory
agreements, voting trusts, restrictions on assignments of voting rights, or other arrangements causing or potentially causing ownership
benefits to go to another (other than after
death or incapacity). The pledge or encumbrance of stock or other ownership interest as
collateral, including seller-financed transactions, does not affect the unconditional nature
of ownership if the terms follow normal commercial practices and the owner retains control
absent violations of the terms.
38 C.F.R. § 74.3(b).
Correlatively, SBA also has regulations that address qualifications for SDVOSBs, albeit in different
terms. Under 13 C.F.R. § 125.12, a SDVOSB “must be
at least 51% unconditionally and directly owned by one
or more service-disabled veterans. Section 125.12 of
the SBA’s regulations itself does not elaborate on the
definition of “unconditional.” See Miles Constr., 108
Fed. Cl. at 802 (explaining that the VA’s regulation at
38 C.F.R. § 74.3 includes “an extended definition of unconditional ownership” as compared to the SBA’s regulation at 13 C.F.R. § 125.9, subsequently renumbered to
13 C.F.R. § 125.12, which does not). Even so, a related
SBA regulation, 13 C.F.R. § 124.105, provides a reasonably detailed definition of unconditional ownership with
respect to certain “socially and economically disadvantaged individuals.” Under that regulation, “[a]n applicant or [p]articipant must be at least 51 percent uncon-

58a
ditionally and directly owned by one or more socially
and economically disadvantaged individuals” to qualify
for a particular business development program. See 13
C.F.R. § 124.105. That regulation contemplates that
“unconditional” refers to the effect of current executory
arrangements, not everything that might happen in the
future. For example, with respect to “[s]tock options’
effect on ownership,” the regulation explains that “[i]n
determining unconditional ownership, SBA will disregard any unexercised stock options or similar agreements held by disadvantaged individuals.” 13 C.F.R.
§ 124.105(e).
If SBA determines that a VA-certified SDVOSB
does not satisfy SBA’s eligibility requirements, 38
C.F.R. § 74.2(e) requires the VA to remove the entity
from the VIP database.
B. Standards for Preliminary Injunction
In a bid protest, the court may award any relief that
it considers proper, including injunctive relief. 28 U.S.C.
§ 1491(b)(2). When determining whether to grant a preliminary injunction, the court must consider: (1) whether
the movant is likely to succeed on the merits; (2) whether the movant will suffer from irreparable harm if an injunction is not granted; (3) whether the balance of hardships to the parties tips in the movant’s favor; and (4)
whether the public interest favors injunctive relief.
Sciele Pharma Inc. v. Lupin Ltd., 684 F.3d 1253, 1259
(Fed. Cir. 2012) (citing Amazon.com, Inc. v. Barnesandnoble.com, Inc., 239 F.3d 1343, 1350 (Fed. Cir. 2001)); see
also FMC Corp. v. United States, 3 F.3d 424, 427 (Fed.
Cir. 1993). “Although the factors are not applied mechanically, a movant must establish the existence of both of
the first two factors to be entitled to a preliminary injunction.” Altana Pharma AG v. Teva Pharm. USA,

59a
Inc., 566 F.3d 999, 1005 (Fed. Cir. 2009) (citing Amazon.com, 239 F.3d at 1350). With that caveat regarding a
preliminary injunction, “[n]o one factor, taken individually, is necessarily dispositive. ... [T]he weakness of the
showing regarding one factor may be overborne by the
strength of the others.” FMC Corp., 3 F.3d at 427. A
preliminary injunction is “an extraordinary and drastic
remedy, one that should not be granted unless the movant, by a clear showing, carries the burden of persuasion.” Mazurek v. Armstrong, 520 U.S. 968, 972 (1997)
(emphasis omitted) (citation omitted).
1.

Likelihood of success on the merits.

To qualify for a preliminary injunction, Veterans
must show that it is “more likely than not” to succeed
on the merits of its claim. See Revision Military, Inc.
v. Balboa Mfg. Co., 700 F.3d 524, 525-26 (Fed. Cir. 2012)
(explaining that the standard in the context of a preliminary injunction is “more likely than not,” rather than
“clear or substantial likelihood,” for matters unique to
the Federal Circuit). On the merits, Veterans will need
to show that the government’s decision was “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law” under the Administrative Procedure Act, 5 U.S.C. § 706(2)(A). See also 28 U.S.C.
§ 1491(b)(4) (“In any action under this subsection, the
courts shall review the agency’s decision pursuant to
the standards set forth in [S]ection 706 of [T]itle 5.”).9
Here, Veterans argues that SBA improperly relied
on “erroneous” facts and law when it found that Mr.
9

Ultimately, Veterans must also demonstrate that it was
prejudiced by the government’s arbitrary or unlawful conduct.
See Banknote Corp. of Am., Inc. v. United States, 365 F.3d 1345,
1353 (Fed. Cir. 2004). Such prejudice is discussed infra in the context of irreparable harm.

60a
Montano did not unconditionally own 51 percent of
Veterans. Pl.’s Mem. at 14. Veterans challenges both
the VA’s decision to remove it from the VIP database
and the underlying ineligibility findings of the SBA area office, arguing that such decisions were arbitrary,
capricious, and contrary to law. Id. at 13-14. The government, in contrast, focuses solely on the VA’s decision, contending that CVE properly followed 38 C.F.R.
§ 74.2(e) when it removed Veterans from the VIP database after the SBA area office’s ineligibility determination in July 2017. Def.’s Resp. at 19-20 . The government’s argument is misguided. Although CVE applied
38 C.F.R. § 74.2(e) in decertifying Veterans, the VA’s
decision was based upon conclusions reached by the
SBA area office. See AR 4-14. Thus, as the court explained supra, the rationale underlying SBA’s ineligibility determination is embedded within the VA’s decision. The court accordingly must look not only at the
VA’s removal of Veterans from the VIP database, but
also at the SBA findings underlying that removal.
In concluding that Mr. Montano did not unconditionally own at least 51 percent of Veterans pursuant to
13 C.F.R. § 125.12, the SBA area office examined Articles 9.01 to 9.03 of Veterans’ shareholder agreement.
AR 2-7; see also AR 48-450. Those Articles provide
that if a shareholder dies, is found to be incompetent, or
becomes insolvent, that shareholder “shall be deemed
to have offered all the [s]hares of the [c]orporation
owned by such [s]hareholder at the time of occurrence
of any of the events specified above to the [c]orporation
and the [c]orporation shall purchase such [s]hares at
the Certificate Value and upon the terms and conditions hereinafter set forth.” AR 48-450. Relying upon
a dictionary definition of “unconditional” that formed
the basis for two previous SBA decisions, International

61a
Logistics Grp., 2009 WL 5942359, and Wexford, 2006
WL 4726737, the SBA area office stated that Articles
9.01 to 9.03 placed “impermissible conditions” on Mr.
Montano’s ownership interest in Veterans, AR 2-7.
In essence, the shareholder agreement provision
cited by SBA is a clause that provides the company
with the first opportunity to purchase the shareholder’s
shares when death, incompetency, or insolvency arises.
This court previously examined a clause calling for an
optional buy-out in the event of an involuntary withdrawal in the context of 38 C.F.R. § 74.3. In AmBuild
Co., LLC v. United States, 119 Fed. Cl. 10 (2014), the
court held that particular clauses within a company’s
operating agreement, including a clause calling for involuntary withdrawal in the event of bankruptcy and
another providing for transfer of ownership by operation of law, did not affect the unconditional nature of
ownership under 38 C.F.R. § 74.3. Id. at 23-26 (concluding that [the VA’s Office of Small and Disadvantaged
Business Utilization’s (“OSDBU”)] decision to decertify
AmBuild and remove it from the VetBiz VIP Database
was arbitrary and capricious and not in accord with
VA’s regulations”). Correlatively, in Miles Construction, the court addressed a clause providing a right of
first refusal on the part of a minority shareholder that
would arise when a service-disabled veteran owner had
a bona fide offer to sell shares. Miles Constr., 108 Fed.
Cl. at 803. The court noted that the right was not presently executory and was a customary business provision that did not fall afoul of 38 C.F.R. § 74.3:
In sum, the right of first refusal provision in
Article XI is not presently executory, is a
standard provision used in normal commercial
dealings, and does not burden the veteran’s
ownership interest unless he or she chooses to

62a
sell some of his or her stake. As a result, Article XI, Paragraph 11.01 does not affect the veteran’s unconditional ownership with regard to
C.F.R. § 74.3(b). The decision by OSDBU to
the contrary, i.e., that Articles X, XI, and XII
of the operating agreement rendered Miles ineligible for the VIP database, was arbitrary
and capricious and contrary to law.
Id. at 803.
Although SBA’s decision here was based upon its
regulation, 13 C.F.R. § 125.12, not those of VA, the rationale underlying the Miles Construction and AmBuild decisions applies to this case as well. Significantly, the court in Miles Construction specifically considered International Logistics Grp. and Wexford, the two
SBA decisions relied upon by SBA in this case, and disapproved them in context. See Miles Constr., 108 Fed.
Cl. at 801-02. The court rejected the government’s reliance on those decisions and instead determined that the
right-of-first refusal clause was not executory at that
time, thus concluding that the clause did not affect unconditional ownership. See id. at 801-03; see also AmBuild Co., 119 Fed. Cl. at 25 (relying on Miles Constr.,
108 Fed. Cl. at 803)). SBA did not address or discuss
such findings in reaching its decision with respect to
Veterans’ eligibility. See generally AR Tab 2.
Additionally, the definition of “unconditional” set
forth in Wexford, 2006 WL 4726737, at *6, and adopted
by the SBA area office in its decision addressing Veterans’ eligibility, see AR 2-7, is based upon a dictionary
definition of “unconditional,” see Wexford, 2006 WL
4726737, at *6; see also International Logistics Grp.,
2009 WL 5942359, at *4-5 (quoting Wexford, 2006 WL
4726737, at *6). Resort to a dictionary definition of

63a
“unconditional” is both unnecessary and inappropriate.
SBA regulations expressly define unconditional ownership in the context of “socially and economically disadvantaged individuals.” 13 C.F.R. § 124.105. Such regulatory guidance relates to eligibility for a business development program, and it provides insight into the
scope of unconditional ownership for SDVOSBeligibility. Notably, 13 C.F.R. § 124.105(e) states that
“SBA will disregard any unexercised stock options or
similar agreements held by disadvantaged individuals”
in determining whether an applicant unconditionally
owns the company at issue. This provision, which was
not addressed by the SBA area office, directly bears on
Veterans’ shareholder agreement and its status as a
SDVOSB.
In sum, based upon the foregoing analysis, the SBA
area office’s findings underlying the VA’s decision to
remove Veterans from the VIP database fail to provide
“a coherent and reasonable explanation” for SBA’s exercise of discretion, Impresa Construzioni Geom. Domenico Garufi v. United States, 238 F.3d 1324, 1333
(Fed. Cir. 2001) (citation omitted), or articulate a “rational connection between the facts found and the
choice made,” Motor Vehicle Mfrs. Ass’n v. State Farm
Mut. Auto Ins. Co., 463 U.S. 29, 43 (1983) (internal quotation marks omitted) (quoting Burlington Truck Lines
v. United States, 371 U.S. 156, 168 (1962)). The court
therefore finds that Veterans is more likely than not to
succeed in proving that the government’s actions were
arbitrary and capricious or not in accordance with law.
2.

Irreparable harm.

Veterans asserts that if it is not granted injunctive
relief, it will suffer irreparable harm because it will be
deprived of the opportunity to compete for SDVOSB

64a
procurements. See Pl.’s Mem. at 14-15. Upon removal
of Veterans from the VIP database, it will be unable to
compete for the roofing and relocation solicitations at
issue in this case, as well as any future SDVOSB solicitations respecting which it would otherwise be an eligible competitor. Id. Further, as a small business, Veterans represents that its inability to obtain work as a
SDVOSB could threaten its viability. See id. at 15.
The “[d]enial of the opportunity to compete for a
contract can constitute irreparable harm.” Miles Constr., 108 Fed. Cl. at 806 (citing Electronic On-Ramp,
Inc. v. United States, 104 Fed. Cl. 151, 169 (2012);
NetStar-1 Gov’t Consulting, Inc. v. United States, 101
Fed. Cl. 511, 530 (2011), aff’d, 473 Fed. Appx. 902 (Fed.
Cir. 2012)); see also United Int’l Investigative Servs.,
Inc. v. United States, 41 Fed. Cl. 312, 323 (1998) (“[T]he
opportunity to compete for a contract and secure any
resulting profits has been recognized to constitute significant harm.”) (citing cases). Providing the injunctive
relief contemplated here, i.e., setting aside the CVE’s
removal of Veterans from the VIP database and reinstating Veterans as a qualified SDVOSB, would circumvent the potential harm to Veterans by allowing it
to compete for the SDVOSB setaside procurements at
issue. Thus, the court finds that Veterans will suffer
irreparable harm if injunctive relief is not provided.
3.

Balance of hardships.

The government argues that it will be harmed if
the relocation solicitation is indefinitely stayed. Def.’s
Resp. at 21-22. Reinstating Veterans into the VIP database, however, would render Veterans eligible for the
relocation solicitation without further delay of that contract. Given Veterans’ likelihood of success on the merits of its claim and the irreparable harm it will suffer if

65a
injunctive relief is not provided, the court finds that the
balance of hardships weighs in favor of granting Veterans’ preliminary injunction and temporarily reinstating
Veterans into the VIP database as a qualified
SDVOSB.
4.

Public interest.

Finally, the government contends that the public
interest does not weigh in favor of injunctive relief because the upcoming SDVOSB solicitations at issue here
have “operate[d] within the bounds of the law.” Def.’s
Resp. at 22 (citation omitted). Such an argument is
misplaced. If the government has wrongfully prevented Veterans from competing for a contract award that
it should be eligible to receive, as Veterans claims, the
integrity of that procurement is compromised. “The
public has a strong interest in preserving the integrity
of the procurement process.” KWV, 108 Fed. Cl. at 458
(citing Bona Fide Conglomerate, Inc. v. United States,
96 Fed. Cl. 233, 242-43 (2010); SAI Indus. Corp. v.
United States, 60 Fed. Cl. 731, 747 (2004)); see also
PGBA, LLC v. United States, 60 Fed. Cl. 196, 221
(2004), aff’d, 389 F.3d 1219 (Fed. Cir. 2004). Thus, the
court finds that the public interest will be served by
ensuring that Veterans has the opportunity to fairly
compete for the SDVOSB procurements.
CONCLUSION
For the reasons stated, Veterans’ motion for a preliminary injunction is GRANTED IN PART and the
government’s motion to dismiss is DENIED.10 CVE’s
decision dated July 21, 2017, rendering Veterans ineli10

Veterans’ application for a temporary restraining order is
superseded and thus DENIED as moot.

66a
gible for contracts awarded to SDVOSBs, is set aside.
The VA shall restore Veterans to the VIP database of
approved SDVOSB entities. Accordingly, Veterans
shall be allowed to compete for the relocation solicitation.11 The court’s grant of preliminary relief will remain in effect until the court resolves Veterans’ claim
for permanent relief. Because this preliminary relief is
structured to ameliorate harm that might arise from
delays in the VA’s procurement activities, Veterans is
required to provide security. Pursuant to RCFC 65(e),
Veterans shall give security in the amount of $150,000
to pay costs and damages sustained by the VA if it is
found to have been wrongfully enjoined. Veterans shall
provide such security on or before August 25, 2017.12
The parties are requested to file a joint status report on or before August 31, 2017, addressing proposals
for further proceedings in this case.
It is so ORDERED.
s/ Charles F. Lettow
Charles F. Lettow
Judge

11

Because the government has stated that the roofing solicitation is in the process of being cancelled and reissued, Def.’s
Resp. at 11 n.4; Def.’s Notice of Solicitation Cancellation, Veterans’ claim with respect to that solicitation is moot and the court
need not address it in granting relief.
12

A generally applicable form of security bond for a preliminary injunction can be found at Form 11 of the court’s rules. For
terms and provisions of a satisfactory security, plaintiff is encouraged to contact the Clerk of Court.

67a
APPENDIX E
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1409
July 9, 2019
VETERANS CONTRACTING GROUP, INC.,
Plaintiff-Appellant,
v.
UNITED STATES,
Defendant-Appellee.
Appeal from the United States Court of Federal Claims
in No. 1:17-cv-01015-CFL, Judge Charles F. Lettow.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Veterans Contracting Group, Inc. filed a
combined petition for panel rehearing and rehearing en
banc. A response to the petition was invited by the
court and filed by Appellee United States. The petition
was referred to the panel that heard the appeal, and

68a
thereafter the petition for rehearing en banc was referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on July 16, 2019.
FOR THE COURT
July 9, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

